Append'ii X A
FILED: January 30, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1670
(7:18-CV-00293-EKD)

PROGRESSIVE GULF INSURANCE COMPANY
Plaintiff - Appellee
v.
WILLIAM BURKE
Defendant - Appellant

JUDGMENT

In accordance

with the decision of this court, the judgment of the district

court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
Id PATRICIA S. CONNOR. CLERK

PER CURIAM:
William Burke appeals the district court’s order granting summary judgment to the
Appellee.

We have reviewed the record and find no reversible error.* Accordingly, we

affirm for the reasons stated by the district court. See Progressive Gulf Ins. Co. v. Burke,
No. 7:18-CV-00293-EKD (W.D. Va. May 10, 2019). We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
AFFIRMED

• We have not considered issues raised by Burke for the first time on appeal . See L3 Commons Carp. , Serco, Inc.. 926 F.3d 85, 89 n.l (4th Cir. 2019) (cmng JWm> v.
United States, 814 F.3d 681, 686 (4th Cir. 2016)).
2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1670

PROGRESSIVE GULF INSURANCE COMPANY,
Plaintiff - Appellee,
v.
WILLIAM BURKE,
Defendant - Appellant.

Appeal from the United States District Court for the Western District of Virginia, at
Roanoke. Elizabeth Kay Dillon, District Judge. (7:18-cv-00293-EKD)

Submitted: December 17, 2019

Decided: January 30, 2020

Before WILKINSON and DIAZ, Circuit Judges, and TRAXLER, Senior Circuit Judge.

Affirmed by unpublished per curiam opinion.
William Burke, Appellant Pro Se. Christopher Alan Abel, WILLCOX & SAVAGE, PC,
Norfolk, Virginia, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

Append) X 6

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
PROGRESSIVE GULP INSURANCE
COMPANY,
Plaintiff and Counter-Defendant,
v.
WILLIAM BURKE,
Defendant and Counter-Claimant.

)
)
)
)
)
)
)
)
)
)

Civil Action No, 7:18-cv-00293
By: Elizabeth K. Dillon
United States District Judge

MEMORANDUM OPINION
In this declaratory judgment action, the parties dispute whether Progressive Gulf Insurance
Company is obligated to provide insurance coverage for the loss of a yacht owned by William
Burke, which sank at its dock on Smith Mountain Lake, behind Burke’s house. Burke has also
filed a counterclaim, seeking the full amount of coverage available under the insurance policy.
Pending before the court is Progressive's motion for summary judgment (Dkt. No. 18), in
which it contends that it has no duty to provide any coverage for that loss because Burke failed
properly to winterize the yacht, which was the cause of the damage. As a result of this failure,
Progressive argues that at least two specific terms of the policy bar coverage. Because the court
agrees that, based on the undisputed facts, at least one of the provisions bars any coverage for the
loss here, it will grant plaintiffs motion for summary judgment, declare the rights and obligations
of the parties accordingly, and dismiss with prejudice Burke’s counterclaim.

I. BACKGROUND
This case falls within the court’s diversity jurisdiction because Burke is a citizen of
Virginia, Progressive is an Ohio corporation with its headquarters and principal place ot business
located in Ohio, and the amount in controversy exceeds $75,000.

7-10

nnono cri/'rv

f*Nn/»i mn/in+ 07

acmomo

i

O'■s✓"»/■-»»Jf* /IOC

Progressive’s motion for summary judgment set forth a numbered statement of undisputed
facts, citing to the record. Although Burke filed a response, it was primarily a two-page summary
of Burke’s legal position. (Mem. Opp’n to Mot. Summ. J., Dkt. No. 20.) He made no attempt to
respond to specific facts or to cite any specific portions of the record, as required by Federal Rule
of Civil Procedure 56(c). Thus, the court will deem the facts set forth by Progressive undisputed,
see Rule 56(e), with a tew exceptions. First, while admitting that he deviated from the
winterization procedure recommended by the manufacturer, Burke claims that die deviation was
justified by local usage and custom.” He claims that he and his son have significant experience
maintaining and piloting boats on Smith Mountain Lake and have opined that their winterization
process was in accordance with local usage. (Mem. Opp’n to Mot. Summ. ). 1.) He supports
tliis only with a genera! reference to ‘‘statements attached to [Progressive’s] motion.” {Id.)
Burke contends that this dispute precludes summary judgment because the relevant policy
exclusions referenced in Progressive's brief—according to him—allow for deviation by local
custom. The court will address these arguments in context in Section II infra.
Because the parties are familiar with the facts and because they are largely undisputed, the
court will not discuss them in detail but, instead, simply incorporates pages 2 through 8 of
Progressive’s memorandum in support of its summary judgment. In this opinion, the court
touches only upon the facts significant to its analysis.
A. The Sinking of the Yacht
1 he yacht owned by Burke is a 2006 custom catamaran motor-yacht, the Colusa Explorer
(the Vessel).1 The Vessel includes two air conditioning units (the A/C units), which were
installed more than ten years ago. According to the reports of Progressive’s two experts, the
1 According to the motion for summary judgment, the yacht is registered through “Coast Cat Cruisers,
1^9 ?’)'3 Fi0rid81!mited liabil‘ty comPany of which Burke is the only member. (Burke Dep. 32-33,52, Dkt. No.

2
-7-io /■>,, nmn.o nizn

rin«im/int oe

ciind nc/'in/in

n

7

act?

Vessel sank because it had not been properly winterized. In particular, neither Burke nor his adult
son. Travis—to whom Burke had delegated winterization tasks—properly winterized the A/C
units. The manufacturer’s instructions for the A/C units required (for a boat that would be stored
on the water throughout this region’s winter) that all water in the A/C be replaced with antifreeze
and that the Vessel’s sea cocks be closed.2 But it is undisputed that neither of these steps were
taken. Burke and Travis believed (incorrectly, according to both the manufacturer s instructions
and Progressive’s experts) that they did not have to winterize that system, Because there was
water left in the Vessel’s raw-water inlet, when the temperatures stayed low enough, that water
froze. It then expanded and caused part of the A/C system called the “strainer bowl to crack and
break free of its mount. That, in turn, allowed lake water entering the Vessel through its open
seacock to flow unimpeded into and out of the broken strainer, flooding the Vessel until it sank.
The sinking occurred in early January 2018 during the overnight hours.
B. The Policy
Approximately one month before the Vessel sank, in December 2017, Progressive issued a
“Virginia Boat and Personal Watercraft” insurance policy (the Policy) to Burke. By its terms, the
Policy provided coverage for the Vessel through December 2018, including coverage fot its
storage and use of navigable waters. The Policy was an “Agreed Value Policy, ’ with a coverage
limit of $i 50,000, a figure supplied by Burke as his estimate of the value of the yacht and all
belongings on it. There are several portions of the Policy that Progressive relies upon to contend
that it has no obligation to cover the losses due to the sinking.
The first is an exclusion from coverage for a loss “that occurs because a covered watercraft
has not been properly winterized in accordance with the manufacturer’s specifications, subject to
* A sea cock is “a cock or valve close to a ship’s hull for opening or closing a pipe which commun icates with
the sea.” Sea Cock, Merriam-Webster, https://www.merriam-webster.com/dictionary/sea%20cock (last visited May
9,2019).

3
r-ii-n "7-10

r»i t

nmno ci/n

n^/M.mAnt oo

VMr>A AK/1 A/i A

DArt/n *7- r*f "7

n'srxAiridf-

a

AO

local customs.” (Policy 15, 17, Dkt. No. 1-1.) The second is set forth in a portion of the policy
titled “Your Representations to Us Regarding Your Covered Watercraft.” It states:
You represent to us that, at the inception of this policy, your covered
watercraft is in seaworthy condition. Violation of this
representation will void this policy from its inception.
You further represent to us that you wil l continue to maintain your
covered watercraft in a seaworthy condition and to comply With all ,
federal safety standards and provisions. This policy does not
cover any loss or damages caused by your failure to maintain
your covered watercraft in seaworthy condition or to comply
with all federal safety standards and provisions.
(Policy 35.)
In the definitions section of the Policy, it provides:
13. “Seaworthy” means fit to withstand the foreseeable and
expected conditions of weather, wind, waves, and the rigors ot
normal and foreseeable use in whatever type of waters a watercraft
will be located. For a watercraft to be considered seaworthy, you
must (without limitation):
a. exercise due diligence lo properly manage the watercraft;
b. comply with all federal safety standards and provisions;
and
c. follow all customary and manufacturer-recommended
maintenance guidelines.
(Policy 3.)
11. DISCUSSION
A. Legal Standards
Under Rule 56, summary judgment is proper where “there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). A
genuine issue of material fact exists only where the record, taken as a whole, could lead a
reasonable jury to return a verdict in favor of the non-moving party. Ricci v. DeStefano, 557 U .S.
557, 586 (2009). In making that determination, the court must take “the evidence and all
4
7»-io

nnorto cvr\

nc/m/m

/ion

PIS

reasonable inferences drawn therefrom in the light most favorable to the nonmoving party.”
Henry v. Purnell, 652 F.3d 524,531 (4th Cir. 2011) (en banc).
Virginia’s choice-of-law rules provide that questions with regard to the interpretation of an
insurance contract shal 1 be governed by the law of the state where the contract was made. Factory
Mut. Ins. Co. v. Liberty Mut. Ins. Co., 518 F. Supp. 2d 803, 808 (W.D. Va. 2007) (citing Lixie v.
Stale FarmMut. Auto. Ins. Co., 469 S.E.2d 61,63 (Va. 1996)). In Virginia, an insurance policy is
made in the state in which the policy was delivered. Seabulk Offshore, Ltd. v. Am. Home Assur.
Co., 377 F.3d 408,418 (4th Cir. 2004). Here, Progressive asserts that “Burke is a Virginia
resident who applied to Progressive for an insurance policy in Virginia and the Policy was
delivered to him in Virginia to insure the Vessel, which was kept and operated within this
Commonwealth." (Mem. Supp. Mot. Summ. J. 9, Dkt. No. 19.) Burke does not contend
otherwise, nor does he argue for the application of any other law. Thus, the court applies Virginia
law in interpreting the Policy’s terms.
Under Virginia law, the interpretation of an insurance policy presents a question of law.
Va. Farm Bur. Mitt. Ins. Co. v. Williams, 677 S.E.2d 299,302 (Va. 2009). Just as with any
contract, the court must interpret the policy “by determining the parties’ intent from the words they
have used in the document.” Id. When a contested policy term is unambiguous, courts must
apply its plain meaning as written. Id.
B. Coverage Under the Policy
As already noted, Progressive relies on two provisions in the Policy to support its
contention that it has no obligation to cover any losses from the Vessel’s sinking. The court turns
first to the exclusion for any loss “that occurs because a covered watercraft has not been properly
winterized in accordance with the manufacturer’s specifications, subject to local customs.

5
n^rs 7>io /%»# nnono tzi/n

nnmtiYinrtt O'")

CilrvH nC/lA/m

SZ M 7

(Policy 15.) Here, there is ample evidence to suggest that (lie loss here was caused by a failure to
winterize in accordance with the manufacturer’s specifications, subject to local customs.
Progressive’s two experts both have opined that the Vessel was not properly winterized. (See,
e.g„ Report of Kim MacCartney. CAPT USCGR (Ret.) 4, Dkt. No. 19-9 (pointing out various
ways in which the winterization undertaken by Travis did not follow manufacturer’s guidelines
and, with respect to the A/C units, specifically noting that, “[h]ad these units been properly
winterized in accordance with the manufacturer’s instructions the strainer never would have frozen
and cracked.”),)3 The one marina manager at Smith Mountain lake who was willing to talk with
Progressive’s expert likewise testified that customary winterization for a vessel in the area
included removing all water from systems, lines and fittings and replacing it with antifreeze.
(Ryan Report #2, Dkt. No. 19-7, at p. 18.)
In response, Burke and Travis have offered only their own opinions that they followed the
local custom at Smith Mountain Lake. The court will assume, without deciding, that Burke’s and
Travis’s own testimony regarding what is the “local custom” would be admissible in some form
and that it creates a genuine issue of material fact precluding summary judgment as to the
winterization exclusion.
Nonetheless, the second portion of the policy upon which Progressi ve relies does not
contain the same limitations for “local customs.” Specifically, that provision states that the policy
“does not cover any loss or damages caused by [the insured’s] failure to maintain [his] covered
watercraft in seaworthy condition....” (Policy 35.) In order to maintain the vessel in a

instructions.

6
7*10 ™t nmno ci/n

[Taai iryiAnt O')

CZUrxrl

A/in

O AAA £i

“7

seaworthy condition, Burke was required to do three things, and the fail ure to do any one of them
would constitute a failure to maintain the Vessel in a seaworthy condition: “a. exercise due
diligence to properly manage the watercraft; b. comply with all federal safety standards and
provisions; and c. follow all customary and manufacturer-recommended maintenance guidelines.’'
Nowhere in those three requirements is an insured’s duty limited by “local custom.”
Indeed, as to the third of these, both customary and manufacturer-recommended maintenance
guidelines must be followed. Id. Because is it undisputed that neither Burke nor Travis
followed the manufacturer-recommended maintenance guidelines regarding winterization of the
A/C units, the vessel was not seaworthy as that term is defined in the Policy. Cf Capital Coastal
Coip. v. Hartford Fife Ins. Co., 378 F. Supp. 163,1974 A.M.C. 2039,2047 (E.D. Va. 1974)
(noting the general presumption that, when a vessel sinks in calm water, a presumption arises that
the vessel was nnseaworthy). And because that failure was the undisputed cause of the loss at
issue, the loss and damages are not covered by the policy, under its plain and unambiguous terms.4
ill. CONCLUSION
For the foregoing reasons, the court will grant summary judgment in favor of Progressive
and an appropriate declaratory judgment will be entered. The court also will dismiss with
prejudice Burke’s counterclaim. An appropriate order will be entered.
Entered: May 10, 2019.

yty^St?
Elizabeth K. Dillon
United States District Judge

4 Progressive also argues that the Policy was void ab initio because the Vessel was not seaworthy at the time
the Policy was issued. In light of its ruling, the court does not address that issue.
7
-7.10

nrvmo ei/n

r»AA! imrtnt OO

ncMrif-in n^>r.A -?

~i

cm

V

IN TUB UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
PROGRESSIVE GULF INSURANCE
COMPANY,
Plaintiffand Couriicr-Deil-ndant,
v.

)
)
)
)
)

)

Civil Action No. 7:1 S-cv-00203

)

WILLIAM BURKE,
Defendant and Crumter-Claiinant.

)
)

By: Elizabeth K_. Dillon
Untied States District Judge

)

FINAL ORDER AND
DECLARATORY JUDGMENT
In accordance with tie memorandum opinion entered Ibis day, it is hereby ORDERED
to plaintiffs motion for sumnrary judgment (Dkt No. 18) is GRANTED and to judgment is
etilwed in favor of plaintiff, The court hereby DECLARES that Progressive Gulf Insurance
Company’s policy (Vilginia Boat and Personal Watercraft Policy, Policy No. 28411417) does
not provide* coverage for any losses, damages, or espenses arising from the insured’s Vessel
sinking at ite dock in January 2018.
It is further ORDERED feat Burke’s counter-claim (Dkt, No. 1J) is DISMISSED WITH
PREJUDICE.
The clerk is directed to strike this case Irom the active docket of the court. The clerk is
furtherdirected to seed copies of this order and the me morandum opinion to all cou nsel of
wooed.
Entered: May Id, 2019.

Zh'&k&
Elizabeth K Dillon
Ifaitcd States District Judge

Case 7:lB-cv-00293-EKD Document33 Filed 05/10/1$ Page 1 of 1 Pageld#: 503
: a.

